              OFFICE OF
             INSPECTOR GENERAL
              U.S.OEPARTME~T            0- TI-ll: INl            lOR



                                                                                          September 29, 2011

Memorandum

To:            RheaS. Suh, Assistant Secretary for Policy, Management and Budget
               Jonathan B. Jarvis, Director, National Park Service
               Robert V. Abbey, Director, Bureau of Land Management

From:          Michael P. Colombo
               Regional Manager

Subject:       Verification Review of Six Recommendations from our April 2007 Report
               "Private Use of Public Lands, National Park Service and Bureau of Land
               Management" (Report No. W-IN-MOA-0008-2005)
               Report No. WR-YS-MOA-0012-2011

        The Office of Inspector General (OIG) has completed a verification review of the fi ve
recommendations made to the National Park Service (NPS) and one recommendation made to
the Bureau of Land Management (BLM) in the subject audit report. The objective of the review
was to determine whether the recommendations were implemented as reported to the Office of
Financial Management (PFM) , Office of Policy, Management and Budget. In memoranda dated
November 10, 2009, March 23, 2010, and August 19, 2010, PFM reported to OIG that all six
recommendations in the subject report had been implemented and that the audit report was
closed.

Background

        Our April 2007 audit report, "Pri vate Use of Public Lands, National Park Service and
Bureau of Land Management" (Report No . W-IN-MOA-0008-2005), made six recommendations
(five to NPS and one to BLM) to take the following actions: determine the extent special -use
permits have been used; open the facilities having exclusive use to the general public; determine
the proper disposition of certain fees received from special-use permits; and perform appropriate
environmental reviews and document the results of those reviews.

       In a May 17, 2007 response from BLM and a June 8, 2007 response from NPS, the
bureaus provided plans to implement the report's recommendations. Based on these responses,
we considered all of the recommendations to be resolved but not implemented. On August 3,
2007, we referred the six recommendations to PFM for tracking of implementation. PFM
reported in subsequent memoranda that NPS and BLM had implemented all of the
recommendations and that PFM considered the report and its recommendations to be closed.




                        Office of Audits, Inspections, and Evaluations I Sacramento, CA
Scope and Methodology

       The scope of this review was limited to determining whether NPS and BLM took
adequate action to implement the recommendations. To accomplish our obj ective, we reviewed
the supporting documentation that PFM used to close the recommendations. We also interviewed
NPS and BLM officials to gather additional information on the actions taken to implement the
recommendations.

        We did not perform any site visits or conduct any detailed audit fieldwork to determine
whether the underl ying deficiencies that were initiall y identified have actually been corrected. As
a result, this review was not conducted in accordance with the "Government Auditing Standards"
issued by the Comptroller General of the United S tates or the "Quality Standards for
Inspections" issued by the Council of the Inspectors General on Integrity and Efficiency.

Results of Review

        Our current review found that NPS implemented Recommendations 1, 2, 3, and 5 but did
not take suffic ient action to implement Recommendation 4. We also fou nd that BLM had
adequately implemented Recommendation 5. The status of the recommendations is summarized
in Appendix 1.

       The five recommendations directed to NPS are discussed below.

        Recommendation 1: Determine the extent to which special-use permits limit long-term
public access to public lands.

        NPS reported that it performed a survey of NPS units in 2007 to determine which special-
use permits limit long-term public access to public lands. Specifically, NPS requested
information on properties where a special park use permit authorized an indi vidual or group
exclusive use of park lands. An NPS official provided us with a listing showing the results of the
survey.

       Based on the information provided by NPS , we concluded that Recommendation J has
been implemented.

        Recommendation 2: Direct NPS officials not to renew those special-use permits that
limit long-term public access to public lands.

        In the June 8, 2007 response to our report, the NPS Director stated that as part of the
survey conducted under Recommendation 1, the legal authority for the special-use permits will
be reviewed. The response stated that "If no legal authority exists the permit will not be
renewed."

       An NPS official provided us w ith the status of the special-use permits as of J uly 20 11 that
were identified during the survey. Table 1 shows the actions NPS took on the fi ve special-use
permits cited in our 2007 report.

                                                                                                   2
                                            Table 1
                  Special-Use Permits Discussed in the 2007 OIG Audit Report

                                                 Status as of july 2011          Exclusive Use Status
Gateway National Recreation Area
 Sil ver Gull Beach Club, New York               Concess ion              Addressed in concession contract
 Breezy Point Surf Club, Ne w York               Concess ion              Add ressed in concess ion contract
 Rockaway Point Yacht Club, New York             Lease                    Determi ned that the property use
                                                                          will contribute to the purposes and
                                                                          programs of the Park
Chesapeake & Ohio Canal National Historic Park
 Washington Canoe Club, District of Columbia     Lease                    Facilities are not being used
 White's Ferry Sportsman's Club, Maryland        Special-use permit       Property awaiting land exchange

      Based on the actions taken by NPS, we concluded that Recommendation 2 has been
implemented.

       Recommendation 3: Open facilities having exclusive use to the general public and
determine the appropriate legal instrument, such as concessions, leases, and right-of-ways, under
which to operate.

       The NPS response to our report laid out the actions planned to implement this
recommendation for the five special-use permits shown in Table 1. An NPS official provided us
with the current status of these efforts. Based on the information provided, we concluded that
NPS is taking appropriate action to determine and use the appropriate legal instrument.

        In regard to opening fac ilities having exclusive use to the general public, we confirmed
via interviews with NPS officials that exclusive use is being addressed. For example, the beach
clubs at Gateway National Recreation Area are now operated under a concession contract that
provides for use of the facilities by the general public.

      Based on the actions taken by N:PS, we concluded that Recommendation 3 has been
implemented.

       Recommendation 4: Seek the advice of the Solic itor's Office to determine the proper
disposition of the inappropriate $2.6 million augmentation of NPS's appropriation.

       The NPS response to our report stated that "NPS officials and park management w ill
work with the Department of the Interior's Solicitors to ensure that all costs incurred are
documented properl y and funds collected under the subject permits are deposited to the correct
accounts."

        The documentation provided by NPS to PFM did not contain either a written request to
the Solicitor's Office for advice or the Solicitor's response on this matter. Instead , closure of the
recommendation was based on a December 17, 2007 memorandum from the Gateway National
Recreation Area Superintendent to the Special Park Uses Program Man ager. The memorandum

                                                                                                                3
stated that "Gateway National Recreation Area provided the following information to the NER
Regional Solicitor for his advice regarding the proper disposition of $2.6 Mi ll ion in coll ected
recoverable costs:" and continues with a discussion of the use of the funds. The memorandum,
however, does not state what the Regional Solicitor's advice was on the matter or whether such
advice was followed.

        During our review, the NPS Special Park Uses Program Manager informed us that there
was no written request for the Solicitor's advice. The Manager stated that there were telephone
conversations between the then-Superintendent and the Regional Solicitor and that "there is no
written solicitor opinion but the legal advice was that a concession contract would be a more
appropriate authority." The Park 's current Superintendent stated that she could not find anything
in the Park's files to indicate what advice was provided by the Solicitor's Office.

        As stated in the OIG audit report, Federal law requires that fees collected in excess of the
costs incurred to administer and monitor the special-use permits are required to be deposited into
the U.S. Treasury. Because we were not provided evidence that NPS received and followed
advice from the Solicitor's Office pertaining to determ ining the proper distribution of the
$2.6 million identified in the audit report, we concluded that this recommendation was not fully
implemented and therefore should be reinstated and classified as not implemented.

       Recommendation 5: Develop a process that ensures field offices and park units perform
appropriate NEPA [National Environmental Policy Act] reviews prior to the issuance of special-
use and recreation permits and document the results of the reviews.

        The NPS response to our report referred to a March 31,2006 memorandum from the NPS
Deputy Director to NPS Regional Directors requiring them to implement an audit program for
special park use programs in their regions. In addition, the NPS Director issued a memorandum
that highlighted the importance of NEPA in the review process and emphasized the use of the
Planning, Environment and Public Comment (PEPC) system to document and record compliance
actions related to the permits.

        The NPS Special Park Uses Program Manager provided us with a March 3 1, 2006
memorandum from the NPS Deputy Director with the subject " Implementation of GAO
Recommendation on Cost Recovery." The memorandum required an audit of each park's cost
recovery program every 5 years. The memorandum, however, did not mention reviews of NEP A
compl iance. The Manager stated that she did not realize the memorandum was silent on
verifying that appropriate agreements were being used and adequate NEPA reviews were being
done. The Manager added, however, that the NPS regions have been doing these rev iews for the
past 5 years and she conducts periodic meetings with regional officials where the reviews are
discussed and has been provided listings of regional reviews performed. The Manager stated that
the issues found are relatively minor.

        NPS also provided us with a listing of special-use permits from its PEPC system for 2008
to 20 11, showing the type of NEPA documents prepared and the date the compliance reviews
were done.



                                                                                                     4
      Based on the information reviewed, we concluded that Recommendation 5 was
implemented.

       Recommendation 5 was also directed to BLM and is discussed below.

       Recommendation 5: Develop a process that ensures field offices and park units perform
appropriate NEPA reviews prior to the issuance of special-use and recreation permits and
document the results of the reviews.

        The BLM Director' s response to our report stated that BLM is implementing additional
overs ight in the form of periodic Alternative Internal Control Reviews to ensure that it is
compl ying with its NEPA policies and procedures.

        BLM also reported to PFM that it has issued policies that the State and Field Offices
follow when processing Special Recreation Permits (SRP). BLM's Recreation Permit Handbook
provides guidance pertaining to: (l ) how to process SRP applications; (2) the process logic
model; (3) NEPA requirements; (4) the role of the Authorizing Officer; and (5) a checklist for
application processing. BLM's NEPA Handbook describes NEPA requirements and includes
several process logic models for NEP A and land use planning compliance.

        A BLM official told us that they have been conducting periodic Alternative Internal
Control Reviews. SRPs were a focus area of these reviews for a couple of years subsequent to
BLM' s response to our report, and NEPA compliance when processing SRPs is still being
rev iewed in general. A BLM official provided us with a review performed of one of BLM's state
offices, and NEPA compliance was covered by the review.

      Based on the actions taken by BLM, we concl uded that Recommendation 5 was
implemented.

Conclusion

       We informed Department and bureau officials of the results of this review. NPS should
provide PFM with information on the actions it will perform to implement Recommendation 4
by October 31, 2011.

Responding to the Report

        We request that PFM reinstate Recommendation 4 as not implemented from the subject
audit report and inform us of the actions to be taken for this recommendation.

       If you have any questions about this report, please contact me at (9 16) 978-5653.




                                                                                                5
cc:   Eric Eisenstein, Division Chief, Internal Control and Audit Follow-up, Office of
      Financial Management
      Nancy Thomas, Audit Li aison Officer, Office of Financial Management
      Sharon Blake, Audit Liaison Officer, Office of Financial Management
      Vera Washington, Audit Liaison Officer, National Park Service
      Jacob Lee, Audit Liaison Officer, Bureau of Land Management




                                                                                         6
Appendix 1:
Status of Recommendations
 Recommendation      Status                   Action Required
NPS
1, 2, 3, 5        Implemented   No further action is required.
4                 Not           We are requesting that PFM reinstate the
                  implemented   recommendation. The Director, NPS, should
                                provide a plan identifying actions to be
                                taken, target dates for implementation, and
                                titles of officials responsible for
                                implementation.
BLM
5                 Implemented   No further action is required.




                                                                              7
